        OFFICE OF INSPECTOR GENERAL


                                  Catalyst for Improving the Environment



Special Report




        Congressional Request
        Regarding EPA Clean Water
        Enforcement Actions


        Report No. 2005-S-00001


        October 18, 2004
Report Contributors:	                      Julie Hamann
                                           Gerry Snyder
                                           Andrew Creath
                                           Renee McGhee-Lenart
                                           Dan Engelberg
                                           Kwai Chan




Abbreviations

CAFO         Concentrated Animal Feeding Operations
CSO          Combined Sewer Overflows
FTE          Full-Time Equivalent
FY           Fiscal Year
ICIS         Integrated Compliance Information System
NPDES        National Pollutant Discharge Elimination System
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
SSO          Sanitary Sewer Overflows
                        U.S. Environmental Protection Agency                                              2005-S-00001

                                                                                                        October 18, 2004

                        Office of Inspector General


                        At a Glance

                                                                         Catalyst for Improving the Environment


Why We Did This Review            Congressional Request Regarding
This report responds to the       EPA Clean Water Enforcement Actions
March 2004 request that we
further evaluate EPA’s claim
that the decline in clean water    What We Found
enforcement actions has been
compensated for by a diversion    According to respondents from the 10 EPA regions, wet weather enforcement cases
of these resources to enforce     require more resources to complete than traditional National Pollutant Discharge
against wet weather discharge     Elimination System (NPDES) enforcement actions. Further, 8 of the 10 regions
violations. To address this       said that conducting enforcement actions against combined sewer
question we needed to             overflows/sanitary sewer overflows requires more resources than other types of wet
determine whether:                weather actions.
(1) it takes more resources to
address wet weather clean
water enforcement cases;          Evidence suggests that EPA has shifted NPDES compliance and enforcement staff
(2) there has been a shift of     from traditional NPDES program activities to work on wet weather issues. All five
EPA resources to wet weather      of the EPA regions that provided information from Fiscal Year (FY) 1999 through
priority areas; and (3) the       2003 delineating traditional and wet weather resources indicated that they have
number of enforcement actions     shifted resources to address wet weather violations of the Clean Water Act.
declined over the last 5 fiscal
years.                            Contrary to the implicit assumption stated in the information request, the annual
                                  number of EPA formal NPDES enforcement actions slightly increased rather than
Background                        decreased between FY 1999 to FY 2003. However, the change was not uniform
Concern was raised about the      over this period. A large increase occurred at the beginning of the period, followed
Agency’s commitment to the        by a large 1-year decline. Clean Water Act enforcement actions have increased in
clean water enforcement           the last 2 fiscal years.
function when a 2003 internal
report noted that “formal”        Based on these findings, we cannot conclusively support or refute EPA’s claim that
NPDES enforcement actions         a decline in EPA formal NPDES enforcement actions has been compensated for by
against major facilities had
declined over the previous        a diversion of these NPDES resources against wet weather discharge violations.
3 years.                          Continuous, significant shift of resources toward addressing wet weather cases over
                                  the last 5 years has not been matched by a corresponding increase in the share of
For further information,          wet weather enforcement actions, which we would have expected to see if EPA’s
contact our Office of             assertion were true. However, we could neither prove nor disprove EPA’s 2003
Congressional and Public
                                  assertion due to a lack of staffing data and the fact that other potential explanations
Liaison at (202) 566-2391.
                                  may exist for the absence of a correlation. Other possible explanations include a
To view the full report,          lag between resource inputs and enforcement actions and a possible increase in non­
click on the following link:      enforcement-related activities by EPA staff.

www.epa.gov/oig/reports/2005/
2005-S-00001.pdf
                                  Table of Contents


At a Glance



Results of Special Review
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1


      Regional Officials Indicate That Wet Weather Cases 

      Are More Resource Intensive than Traditional Actions . . . . . . . . . . . . . . . . . . . .                                 2


      Evidence Suggests NPDES Compliance and Enforcement Staff

      Have Shifted to Wet Weather Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     2


      Enforcement Actions Have Increased Slightly in Last 5 Years . . . . . . . . . . . . . .                                      3


      Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   4




Appendices
      A         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       6


      B         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                8


      C         EPA NPDES Compliance and Enforcement FTEs . . . . . . . . . . . . . . . . . . . 10


      D         EPA NPDES Formal Enforcement Actions . . . . . . . . . . . . . . . . . . . . . . . . . 12


      E         EPA NPDES Formal Enforcement Actions and NPDES Compliance
                and Enforcement Staff (Data from Regions 3, 4, 5, 8, and 10 Only) . . . . . 15


      F         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                       Results of Special Review
Introduction

Enforcement against Clean Water Act violations is an essential component of the nation's water
pollution control program. The importance EPA places on enforcement is illustrated by its setting
“compliance and environmental stewardship” as one of its five strategic goals. However, concern
was raised about the Agency's commitment to the clean water enforcement function when a 2003
internal report noted that formal National Pollutant Discharge Elimination System (NPDES)
enforcement actions against major facilities had declined over the previous 3 years. EPA officials
explained the decline by declaring that an increasing share of EPA's clean water enforcement
efforts are directed toward correcting more complex wet weather violations of the Clean Water
Act. Because these cases are more complex in EPA's view, the Agency says the decline in actions
does not reflect a decrease in the Agency's commitment to enforcing the Clean Water Act, since it
has been compensated for by a diversion of NPDES resources to enforce against wet weather
discharge violations. We reported on this issue in an October 2003 report. In a subsequent March
2004 letter, we were asked to further examine this claim.

EPA’s Office of Enforcement and Compliance Assurance (OECA) is responsible for ensuring
facilities comply with their NPDES permits. Under EPA’s NPDES program, permits are issued to
point source dischargers to control the levels of pollutants entering surface waters. Point source
discharges include those coming from the
traditional large major facilities as well as                    Point Source Dischargers
discharges associated with wet weather
                                                   Municipal wastewater treatment facilities
issues. Wet weather pollution is the result of
                                                   Industrial wastewater treatment facilities
excess water following a rainfall. Point
                                                   Wet weather sources:
source dischargers include those in the
                                                       • Combined sewer overflows (CSOs)
accompanying table.                                    • Sanitary sewer overflows (SSOs)
                                                     • Stormwater discharges
This report responds to the request that we          • Concentrated animal feeding operations (CAFOs)
further evaluate EPA’s claim that the decline
in EPA formal NPDES enforcement actions has been compensated for by a diversion of these
NPDES resources to enforce against wet weather discharge violations. We informed
Congressional staff that we could respond to this request by answering the following questions:

    1. 	 Does it take more resources to initiate and resolve wet weather cases in comparison to
         traditional NPDES program enforcement cases?

    2. 	 Has there been a shift of EPA resources from the traditional NPDES program areas to
         wet weather priority areas?

    3. 	 Have the number of EPA formal NPDES enforcement actions declined over the last
         5 fiscal years?


                                                1

Due to the nature of the request, our results are based only on an analysis of formal NPDES
enforcement actions and the number of compliance and enforcement staff. We interviewed OECA
and regional officials and obtained information from (1) EPA’s Integrated Compliance Information
System (ICIS) database, and (2) regional official responses to an OIG questionnaire. We did not
conduct a review of management practices within OECA, nor did we evaluate the potential water
quality improvements stemming from these activities. Appendix A provides additional background
information. Our scope and methodology are presented in Appendix B.

Regional Officials Indicate That Wet Weather Cases
Are More Resource Intensive Than Traditional Actions

Based on responses from regional NPDES program officials, wet weather enforcement cases
require more resources to complete than traditional NPDES program enforcement actions.
EPA officials said that the case development process, negotiation process, and post-settlement
oversight for wet weather cases are much more complex than for traditional NPDES cases. We
asked each region to rank the different NPDES program categories in terms of the amount of
resources needed to complete three key NPDES enforcement actions: (1) administrative orders,
(2) administrative penalty orders, and (3) judicial orders. Eight of 10 regions identified
CSOs/SSOs as requiring the most resources to complete under all three types of actions. The
regions identified traditional NPDES program enforcement actions as requiring the least amount of
resources. We did not evaluate possible lag times between resource inputs and corresponding
enforcement actions.

Evidence Suggests NPDES Compliance and Enforcement Staff
Have Shifted to Wet Weather Activities
The evidence provided suggests EPA
has shifted NPDES compliance and                         Figure 1: EPA FTEs Working on NPDES
enforcement staff from traditional                        Compliance and Enforcement Program
NPDES program activities to work                            (Regions Reporting 3, 4, 5, 8, & 10)
on wet weather issues (see
                                                         120
Appendix C, Tables C.1 and C.2, for
                                                         100
a list of EPA NPDES resources). For
                                                         80
the five regions providing data, EPA
                                                  FTEs




NPDES compliance and enforcement                         60

staff addressing wet weather issues,                     40
as measured by Full-Time Equivalents                     20
(FTEs), increased 59 percent from                         0
FY 1999 to FY 2003, while those                                FY1999 FY2000 FY2001 FY2002 FY2003
addressing non-wet weather programs                              Traditional   Wet Weather   Total
decreased 36 percent. FY 2003 was
the first year in which more FTEs        Source: EPA regions’ responses to OIG questionnaire 7/30/04.
                                         See Table C.3. Note: Total line only includes FTEs addressing
addressed wet weather issues than        NPDES traditional and wet weather issues; FTEs addressing
non-wet weather. See Figure 1.           other support activities were not included.
The shift in resources is particularly

                                                   2

evident when analyzing the ratio of NPDES compliance and enforcement staff addressing wet
weather issues in comparison to the total number of staff working on the NPDES compliance and
enforcement program for the five regions providing data. The ratio nearly doubled from
32 percent in FY 1999 to 59 percent in FY 2003 (see Appendix E, Table E.3). These five regions
were only responsible for about 30 percent of the completed enforcement actions during this
period.

However, because the other five regions (including Regions 2 and 6, which were responsible for
more than half of the enforcement actions during this time period) did not provide data for all
5 years, we could not conclude that this shift in FTEs reflects a national trend (see Appendix C,
Table C.3). Our findings would have additional support if EPA tracked compliance and
enforcement staff working on different segments of the NPDES program. We did not evaluate
non-enforcement activities conducted by NPDES compliance and enforcement staff.

Enforcement Actions Have Increased Slightly in Last 5 Years
The number of EPA formal NPDES enforcement actions slightly increased from FY 1999 to
FY 2003. However, the movement was not uniform over this period. A large increase occurred at
the beginning of the period, with a subsequent large 1-year decline in FY 2001. The number of
clean water enforcement actions then increased in FY 2002 and FY 2003. See Figure 2.

The vast majority of the
                                       Figure 2: EPA NPDES Enforcement Actions by
increase in FY 2000 and the
                                              Category (All 10 Regions Reporting)
decrease in FY 2001 was due
to changes in the number of         1400
enforcement actions to correct      1200
stormwater violations. Fifty-       1000
                                    Actions




two percent of all formal            800
enforcement actions completed        600
in FY 2000 were stormwater           400
actions, compared to only            200
38 percent in FY 2001. See             0
Appendix D, Tables D.1 and                  FY1999     FY2000     FY2001     FY2002    FY2003
D.2, for a complete list of
enforcement actions for each                       Traditional     Wet weather     Total
category and for each region   Data Source: ICIS 6/15/04, verified by EPA region officials 7/30/04.
from FY 1999 to FY 2003.       See Table D.1.

For the 5 fiscal years analyzed, total EPA NPDES formal enforcement actions, wet weather actions,
and non-wet weather actions exhibited the following results:




                                                   3

                   Table 1: EPA NPDES Formal Enforcement Actions by Category

                          FY 1999       FY 2000      FY 2001       FY 2002       FY 2003       Total
 Wet weather
   CSO/SSOs                    75          100            57            53            70          355
   CAFOs                       63           71            34            22            41          231
   Stormwater                225           648           293          294            430        1,890
     Subtotal                363           819           384          369            541        2,476
 Non-wet weather
  All non wet                626           421           385          462            485        2,379
 weather
 Total                       989         1,240           769          831          1,026        4,855
 Source: OECA officials pulled enforcement actions from ICIS, 6/15/04; verified by EPA regions 7/30/04.



In our analysis of enforcement actions, we expected to see a corresponding increase in wet weather
actions as the staff addressing wet weather issues increased. However, when analyzing the
percentage of wet
weather actions to total             Figure 3: Percent of Wet Weather Actions to Total
actions for the five                 Actions and Percent of Wet Weather FTEs to Total
regions with FTE data,                  Wet Weather and Traditional FTEs (Regions
the percentage of wet                               Reporting 3, 4, 5, 8, & 10)
weather actions reached
a peak in FY 2000 and         80%
then declined despite a
                              60%
steady increase in the
percentage of wet             40%
weather FTEs to total         20%
wet weather and
                               0%
traditional FTEs.                      FY1999       FFY2000         FY2001          FY2002       FY2003
See Figure 3 and
Appendix E, Tables E.1,             Percent of Wet Weather Actions to Total Actions
E.2, and E.3.                       Percent of Wet Weather FTEs to Total Wet Weather and Traditional FTEs

                             Source: EPA regions’ responses to OIG questionnaire 7/30/04.

Conclusion
We were unable to assess the validity of EPA’s claim that the decline in EPA formal NPDES
enforcement actions is due to a diversion of these resources to enforce against more complex wet
weather discharge violations. EPA regional officials stated that wet weather enforcement actions
are more complex and resource intensive than traditional clean water enforcement cases.
Moreover, it also appears likely that an increasing share of EPA’s NPDES enforcement resources
have been directed to address wet weather cases. However, the continuous, significant shift of
resources toward addressing wet weather cases over the last 5 years has not been matched by a

                                                    4

corresponding increase in the wet weather share of clean water enforcement actions; we would have
expected to see this if EPA’s assertion were true. We could neither prove nor disprove EPA’s
assertion due to a lack of staffing data, and the fact that other potential explanations may exist for
the absence of a correlation. These possible explanations include a lag between resource inputs and
enforcement actions, and possible increase in non-enforcement-related activities by EPA staff.
Moreover, it is important to note that our current review suggests that total NPDES enforcement
actions have not declined; overall enforcement actions increased in both FY 2002 and FY 2003.




                                                  5

                                                                                     Appendix A

                                        Background
Under EPA’s NPDES program, permits are issued to point source dischargers to control the levels
of pollutants into the waters of the United States. Permits are issued by States with approved
NPDES programs and by EPA regions for non-delegated States. Presently, 45 States have
approved NPDES programs.

At the Federal level, EPA’s Water Permits Division, part of the Office of Water, administers the
NPDES program and provides program guidance to the regions and States. The Water Permits
Division is responsible for regulating the discharge of pollutants into the waters of the United States
through the NPDES program.

EPA’s OECA is responsible for ensuring facilities comply with their NPDES permits. OECA
ensures compliance with U.S. environmental laws by employing various approaches, including
compliance assistance, compliance incentives, and civil and criminal enforcement. OECA sets forth
the goals, priorities, and activities for the national environmental enforcement and compliance
program through its memorandum of agreement guidance. This guidance provides the basis for
development of individual agreements between OECA and each region identifying overall program
direction and specific activities and expected results.

Historically, the NPDES program has been focused on large (major) sources, including municipal
and industrial wastewater facilities. Permits were issued to small facilities as well, but most of the
inspection and enforcement activities were directed towards the major facilities. In the early 1990s,
States began to report that the majority of their water quality problems were associated with wet
weather issues, including stormwater, CSOs, SSOs, and CAFOs. During the 1990s, EPA
developed programs to deal specifically with these wet weather sources. In the FY 1998/1999
Memorandum of Agreement, EPA made wet weather a priority enforcement area because States
had indicated that these sources of pollution were contributing to impaired waterways. Wet
weather continues as one of OECA’s national priorities.

In February 2003, OECA completed an internal analysis of the major facilities of the NPDES
compliance and enforcement program. Major facilities are generally defined as industrial facilities
and municipal dischargers designed for flows of greater than one million gallons per day and
represent the traditional component of OECA’s NPDES program. OECA’s data showed a
45-percent decrease in EPA formal enforcement actions at major facilities from FY 1999 to
FY 2001. According to OECA officials, the decline in formal major NPDES enforcement actions
was due to shifts in resources to OECA’s wet weather priority area. See Figure A for the number
of EPA formal enforcement actions completed at major facilities in the last 5 fiscal years.




                                                   6

In this report, we report on trends in                     Figure A: Number of EPA Formal NPDES
EPA’s NPDES formal enforcement                         Enforcement Actions Completed at M ajor Facilities
actions including but not limited to
                                                      350
majors. Our results differ somewhat                          304
from the OECA analysis because our                    300
analysis is based on all of EPA’s
                                                      250
NPDES formal enforcement actions                                                             216
                                                                        201
including majors, wet weather, etc.




                                            Actions
                                                      200                                             180
                                                                                  174
OECA’s analysis focuses only on the
                                                      150
number of enforcement actions
associated with major facilities.                     100

                                                       50


                                                        0
                                                             1999      2000      2001        2002    2003
                                                                              Fiscal Ye ar


                                         Source: OECA data from EPA’s Permit Compliance System,
                                         5/15/04. Number of formal enforcement actions includes final
                                         administrative orders, final administrative penalty orders,
                                         consent decrees, and court orders.




                                                        7

                                                                                   Appendix B

                            Scope and Methodology
On March 30, 2004, Congress sent a letter to the EPA’s Office of Inspector General (OIG) asking
us to update an October 10, 2003, OIG report on the management, staffing, and funding needs of
the EPA’s OECA. The OIG is responding separately to each item in that letter. This report
provides our response to the third item, which requested that we evaluate EPA’s claim that the
decline in formal NPDES enforcement actions has been compensated for by a diversion of these
NPDES resources to enforce against wet weather discharge violations.

Our review looked only at formal enforcement actions and the associated staff resources, or FTEs,
in EPA’s NPDES program. We obtained information about EPA formal NPDES enforcement
actions from EPA’s Integrated Compliance Information System (ICIS) database. We asked each
region to verify the information and to add any enforcement actions not previously listed in ICIS.
We interviewed staff in OECA’s Office of Compliance and Office of Regulatory Enforcement, as
well as regional officials. OECA officials helped us develop and pre-test a questionnaire requesting
data on enforcement actions, compliance and enforcement staff, and the amount of time required to
conduct enforcement activities. We sent the questionnaire to OECA officials and EPA regions
requesting compliance and enforcement data. We analyzed the data gathered through these
activities and summarized our findings in this report.

We used the questionnaire to gain information on the amount of time needed to complete NPDES
formal enforcement actions. We asked each region to rank the amount of resources needed to
complete administrative orders, administrative penalties, and judicial orders for traditional NPDES
programs, CSOs/SSOs, CAFOs, and stormwater.

To determine whether a shift had occurred in resources and to gain an understanding of available
information, we interviewed OECA officials from the Office of Compliance and Office of
Regulatory Enforcement, and regional officials. Subsequently, we sent a questionnaire to all
10 EPA regions and OECA Headquarters asking each entity to provide information on the total
number of EPA FTEs working in the NPDES compliance and enforcement program for each fiscal
year from FY 1999 through FY 2003. We also asked the regions to provide the number of FTEs
working in each program sector for the same time frame. Program sectors included traditional
NPDES programs, CSOs/SSOs, CAFOs, and stormwater.

To determine whether the number of EPA formal NPDES enforcement actions had declined from
FY 1999 through FY 2003, it was necessary to define “formal enforcement action” and obtain
enforcement action data. We spoke with Office of Compliance officials, who provided us EPA’s
definition of “formal enforcement actions.” Office of Compliance provided us spreadsheets pulled
from ICIS listing the number of formal EPA enforcement actions for each region and OECA
Headquarters for each year for FY 1999 through FY 2003. While OECA engages in activities such
as compliance assistance and compliance incentives beyond enforcement actions, the analysis
provided only addresses formal EPA enforcement actions; the analysis does not include State
NPDES enforcement actions.

                                                 8

Each ICIS spreadsheet contained the case name and number for the five different types of formal
enforcement actions that we analyzed. We asked each region to review the spreadsheets to:

    •	 ensure each case related to an NPDES formal enforcement action;
    •	 ensure all cases were identified; and
    •	 categorize the formal NPDES formal enforcement action into one of the following program
       categories: (1) non-wet weather, (2) CSOs/SSOs, (3) stormwater, or (4) CAFOs.

In situations where discrepancies occurred between information provided from ICIS and the
regional reported information, we used the regional information because we believe the regional
officials are in the best position to provide information on enforcement actions completed. We used
this methodology to determine enforcement actions for all regions with the exception of Region 6.
Due to Region 6's large volume of enforcement actions, Region 6 provided us a list of formal
enforcement actions and categorized each action into one of the following: (1) non-wet weather, (2)
CSOs/SSOs, (3) stormwater, or (4) CAFOs. We matched Region 6's categorized list of formal
enforcement actions with the Office of Compliance list and classified each action as a civil judicial
referral, civil judicial settlement, administrative compliance order, administrative penalty complaint,
or final administrative penalty order based on the Office of Compliance list.

The scope of our work consisted of gathering, providing, and explaining information requested by
Congress, not audit or evaluation services. However, we did conduct our work in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States, with the
following exceptions: we did not (a) evaluate management controls, (b) determine compliance with
laws and regulations, (c) evaluate the controls over the systems that produced this information, and
(d) selectively verify the data to source documents.

We provided a draft version of this report to the Agency for review, and the Agency did not
provide any comments.




                                                  9

                                                                                          Appendix C

      EPA NPDES Compliance and Enforcement FTEs

        Table C.1: EPA Headquarters NPDES Compliance and Enforcement Program FTEs


                                              FY2001               FY2002                FY2003

 Office of Compliance                           19                    20                    22

 Office of Regulatory Enforcement               16                    14                    14

    OECA Total                                  35                    34                    36


Source: OECA Headquarters 8/20/04.

Note: FTE information was not provided for FYs 1999 and 2000.




            Table C.2: EPA Regional NPDES Compliance and Enforcement Program FTEs

                     FY1999           FY2000              FY2001           FY2002           FY2003
 Region 1               18               18                 19               19               18
 Region 2                -                -                 35               32               30
 Region 3               31               33                 31               30               28
 Region 4               50               50                 50               46               46
 Region 5               42               40                 39               36               38
 Region 6                -                -                 -                -                52
 Region 7                -               15                 16               14               13
 Region 8               15               12                 12               11               11
 Region 9                -               18                 16               15               15
 Region 10              28               26                 24               23               22


Source: EPA regions’ responses to OIG questionnaire 7/30/04.

Notes: FTE information was not provided for those instances marked with a dash (-).

        Region 3 FTE numbers were revised in order to use criteria consistent with other Regions.




                                                     10
            Table C.3: EPA Regional NPDES Compliance and Enforcement Program FTEs ­

                                Traditional and Wet Weather Issues


                                  FY1999         FY2000        FY2001         FY2002         FY2003
 Region 1      Traditional            -              -             -             -              4
               Wet weather            -              -             -             -              8
 Region 2      Traditional            -              -             -             -               -
               Wet weather            -              -             -             -               -
 Region 3      Traditional            5             3              2             3              2
               Wet weather            3             7              8             9              9
 Region 4      Traditional           25             25            25            17              17
               Wet weather           13             13            12            14              14
 Region 5      Traditional           23             22            20            16              15
               Wet weather           13             14            16            16              19
 Region 6      Traditional            -              -             -             -              22
               Wet weather            -              -             -             -              18
 Region 7      Traditional            -             8              9             8              4
               Wet weather            -             4              4             3              6
 Region 8      Traditional            2             2              2             2              2
               Wet weather            1             1              2             3              5
 Region 9      Traditional            -              -             -             -              2
               Wet weather            -              -             -             -              9
 Region 10     Traditional           16             14            13            12              9
               Wet weather            3             3              3             4              5


Source: EPA regions’ responses to OIG questionnaire 7/30/04.

Notes: FTE information was not provided for those instances marked with a dash (-).

        In some situations, regions were able to provide us information on the number of FTEs working in
        the NPDES compliance and enforcement program; however, these regions were not able to
        delineate traditional and wet weather resources.

        The FTE numbers presented in Table C.3 do not include region FTE numbers working on other
        activities, which include State oversight responsibilities, data entry etc. Therefore, the FTE
        numbers in Table C.3 will not sum to the FTE numbers in Table C.2.




                                                  11

                                                                                        Appendix D

             EPA NPDES Formal Enforcement Actions



                   Table D.1: EPA NPDES Formal Enforcement Actions by Region

                 FY1999       FY2000       FY2001         FY2002   FY2003      Totals     Percent
 Region 1            55           34           23            40       47         199          4.1%
 Region 2           140         185           137           221      192         875        18.0%
 Region 3            59         130            69            49       78         385          7.9%
 Region 4           119         129            97            75      133         553        11.4%
 Region 5            59           42           51            44       55         251          5.2%
 Region 6           442         571           247           299      346       1,905        39.2%
 Region 7            37           40           23            12       54         166          3.4%
 Region 8            10           12           36            22       50         130          2.7%
 Region 9            21           44           32            55       41         193          4.0%
 Region 10           46           53           54            14       30         197          4.1%
 OECA HQ              1            0            0             0        0           1          0.0%
   Total            989        1,240          769           831     1,026      4,855       100.0%

Source: ICIS 6/15/04, verified by EPA region officials.

Note: 	 OECA Headquarters’ low number of NPDES formal enforcement actions occurred because, while
        OECA Headquarters assists in many enforcement actions, OECA allows the regions to count these
        actions.




                                                    12

Table D.2: EPA NPDES Formal Enforcement Actions by Category and Type of Enforcement Action

                                               FY1999   FY2000   FY2001   FY2002   FY2003
 Wet Weather
 CSOs/SSOs        Civil Judicial Referrals         3      10        9        2        16
                  Civil Judicial Settlements       2       1        0        8         8
                  Administrative Compliance       61      75       32       35        35
                     Orders
                  Administrative Penalty           9       5        6        4         8
                     Complaints
                  Final Administrative             0       9       10        4         3
                     Penalty Orders
                            Subtotal              75     100       57       53        70
 CAFOs            Civil Judicial Referrals         5       2        1        2         1
                  Civil Judicial Settlements       0       0        0        4         1
                  Administrative Compliance       34      38       14       12        30
                     Orders
                  Administrative Penalty          12      19        3        2         5
                     Complaints
                  Final Administrative            12      12       16        2         4
                     Penalty Orders
                            Subtotal              63      71       34       22        41
 Stormwater       Civil Judicial Referrals        22      11        6        3        29
                  Civil Judicial Settlements       0       2        5        4         2
                  Administrative Compliance       98     239      139      147       244
                     Orders
                  Administrative Penalty          89     205       53       77        84
                     Complaints
                  Final Administrative            16     191       90       63        71
                     Penalty Orders
                            Subtotal             225     648      293      294       430
 Non-wet Weather
 All Non-wet	    Civil Judicial Referrals         18      11       19       12        13
 weather	        Civil Judicial Settlements       15      15       16       14        11
                 Administrative Compliance       355     246      199      295       249
                    Orders
                 Administrative Penalty           77      63       75       81       115
                    Complaints
                 Final Administrative            161      86       76       60        97
                    Penalty Orders
                           Subtotal              626     421      385      462       485
 Totals
                 Civil Judicial Referrals         48      34       35       19        59
                 Civil Judicial Settlements       17      18       21       30        22
                 Administrative Compliance       548     598      384      489       558
                    Orders
                 Administrative Penalty          187     292      137      164       212
                    Complaints
                 Final Administrative            189     298      192      129       175
                    Penalty Orders
                             Total	              989    1,240     769      831     1,026




                                                  13

Source: 	 OECA officials pulled enforcement actions from ICIS, 6/15/04; EPA region officials categorized type of
          action, 7/30/04.

Definitions

EPA “Guidance for Oversight of NPDES Programs” defines a formal enforcement action as one that requires actions
to achieve compliance, specifies a timetable, contains consequences for noncompliance that are independently
enforceable without having to prove the original violation, and subjects the person to adverse legal consequences for
noncompliance. EPA classifies the following five types of actions as formal enforcement actions:

         Civil Judicial Referrals: A request from EPA to the Department of Justice for a "Civil Judicial Action,"
         which is a formal lawsuit, filed in court, against persons or entities that have failed to comply with statutory
         or regulatory requirements or with an Administrative Order.

         Civil Judicial Settlements: A settlement is generally an agreed-upon resolution to an enforcement case. In
         a judicial context, settlements are embodied in Consent Decrees signed by all parties to the action and the
         judge and filed in the appropriate court.

         Administrative Compliance Orders: Corrective action proposed by the Agency for an alleged violator to
         undertake in a "Civil Administrative Action.”

         Administrative Penalty Complaints: Enforcement actions taken by EPA without involving a judicial court
         process. This initiates a Formal Administrative Action by EPA that seeks penalties to address alleged
         violations.

         Final Administrative Penalty Orders: Resolution of a Civil Administrative Penalty Action to address an
         alleged violation. The matter is either settled or it is adjudicated before an EPA Administrative Law. An
         adverse initial decision may be appealed to the EPA Environmental Appeals Board.




Note: 	 The NPDES formal enforcement actions for CSOs/SSOs and CAFOs differ somewhat due to
        methodological issues from information reported in the OIG’s October 10, 2003 report, Congressional
        Request on EPA Enforcement Resources and Accomplishments (Report No. 2004-S-00001). In the
        previous report, Tables 8.2 and 8.3 presented information on the number of civil administrative and judicial
        orders issued since 1995 concerning overflows of sanitary sewers or combined sewers and EPA Clean
        Water Act enforcement actions filed since 1997 against owners or operators of CAFOs. The information in
        the previous report was provided by the Office of Regulatory Enforcement. The information in this report
        was obtained from formal enforcement actions listed in ICIS. In addition, in this report, we defined formal
        enforcement actions to include civil judicial referrals, civil judicial settlements, administrative compliance
        orders, administrative penalty complaints, and final administrative penalty orders.




                                                           14

                                                                                          Appendix E

         EPA NPDES Formal Enforcement Actions and
          NPDES Compliance and Enforcement Staff
          (Data from Regions 3, 4, 5, 8, and 10 Only)


                          Table E.1: EPA NPDES Formal Enforcement Actions

                FY 1999            FY 2000            FY 2001           FY 2002            FY 2003

                       Wet                Wet                Wet                Wet                Wet
             Trad.   Weather    Trad.   Weather    Trad.   Weather    Trad.   Weather    Trad.   Weather
            Issues   Issues    Issues   Issues    Issues   Issues    Issues   Issues    Issues   Issues

Region 3       20         39     12       118       19          50     11         38      27         51

Region 4       63         56     10       119        8          89     30         45      52         81

Region 5       46         13     37          5      42          9      34         10      32         23

Region 8       10         0      11          1      27          9      17         5       32         18

Region 10      16         30     23          30     39          15      9         5       25         5

Totals        155      138       93       273      135       172      101       103      168       178

Combined               293                366                307                204                346
Totals


Source: EPA regions’ responses to OIG questionnaire 7/30/04.

Note:	 While the remaining five regions did provide some of the requested information, the table only
       includes information from those five regions that provided both enforcement actions and FTE
       data for the 5 fiscal years requested.




                                                   15

                       Table E.2: NPDES Compliance and Enforcement FTEs


                FY 1999            FY 2000               FY 2001               FY 2002            FY 2003

                       Wet                 Wet                 Wet                   Wet                   Wet
             Trad.   Weather    Trad.    Weather    Trad.    Weather       Trad.   Weather      Trad.    Weather
            Issues   Issues    Issues    Issues    Issues    Issues       Issues   Issues      Issues    Issues

Region 3        5         3        3           7         2         8           3         9        2            9

Region 4       25         13     25          13      25            12       17           14      17           14

Region 5       23         13     22          14      20            16       16           16      15           19

Region 8        2         1        2           1         2         2           2         3        2            5

Region 10      16         3      14            3     13            3        12           4        9            5

Totals         71         33     66          38      62            41       50           46      45           52

Combined               104                 104                 103                       96                   97
Totals


Source: EPA regions’ responses to OIG questionnaire 7/30/04.

Note:	 While the remaining five regions did provide some of the requested information, the table only
       includes information from those five regions that provided both enforcement actions and FTE
       data for the 5 fiscal years requested.




           Table E.3: Percentage of Wet Weather Actions to Total Enforcement Actions

         and Percentage of Wet Weather FTEs to Total Wet Weather and Traditional FTEs

                                (Regions 3, 4, 5, 8, and 10 Only)


                                        FY1999      FY2000              FY2001      FY2002            FY2003

 Percentage of Wet Weather
 Actions to Total Number of              47%         75%                 56%             51%            51%
 Enforcement Actions

 Percentage of Wet Weather
 FTEs to Total Wet Weather
 and Traditional NPDES                   32%         37%                 40%             48%            59%
 Compliance and
 Enforcement FTEs

Source: EPA regions’ responses to OIG questionnaire 7/30/04.

Note:	 While the remaining five regions did provide some of the requested information, the table only
       includes information from those five regions that provided both enforcement actions and FTE
       data for the 5 fiscal years requested.




                                                    16
                                                                               Appendix F

                                    Distribution

United States Senate

The Honorable James M. Jeffords
The Honorable Frank R. Lautenberg
The Honorable Patrick J. Leahy
The Honorable Ron Wyden
The Honorable Barbara A. Mikulski


U.S. Environmental Protection Agency

Acting Assistant Administrator for Enforcement and Compliance Assurance

Acting Assistant Administrator for Water

Agency Audit Followup Official (the CFO) (2710A)

Agency Followup Coordinator (2724A)

Audit Liaison, Office of Enforcement and Compliance Assurance

Audit Liaison, Office of Water

Associate Administrator for Congressional and Intergovernmental Relations (1301A)

Associate Administrator for Public Affairs (1101A)

Inspector General (2410)





                                              17

